No. _ _ __

Jn tbt &uprtmt QCourt of tbt mntttb &tates
GREG SKIPPER, WARDEN, PETITIONER

v.
CURTIS JEROME BYRD
PROOF OF SERVICE FOR
MOTION TO EXTEND TIME TO FILE A PETITION FOR A WRIT OF CERTIORARI

The undersigned certifies that on December 18, 2019, she served the Motion to
Extend Time to File a Petition for a Writ of Certiorari by mailing same in an envelope .
bearing postage fully prepaid, plainly addressed as follows and emailing same to the
email address provided:
Elizabeth L. Jacobs
615 Griswold, Ste 1125
Detroit,. MI 48226
elzjacobs@aol.com

